No. 19-1280
IN THE

THE IDAHO DEPARTMENT OF CORRECTION, ET AL.,

Petitioners,
v.
ADREE EDMO,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Response
to Petitioners’ Suggestion of Mootness filed by Respondent Adree Edmo
contains 3,997 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 3, 2020.

s/Barrett J. Anderson
BARRETT J. ANDERSON
COOLEY LLP
4401 Eastgate Mall
San Diego, CA 92121
(858) 550-6000

